HHS/OIG, Audit -"Review of Nursing Facility Staffing Requirements at Beverly Healthcare of
Reading,"(A-03-04-00214)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Nursing Facility Staffing Requirements at
Beverly Healthcare of Reading," (A-03-04-00214)
May 18, 2005
Complete
Text of Report is available in PDF format (290 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Beverly Healthcare of Reading was in compliance
with Federal and State staffing laws and regulations for nursing homes.  Based on our review of
92 direct care employees, Beverly complied with Federal staffing laws and regulations, but did not
comply with State staffing requirements.  Beverly did not obtain a current Pennsylvania State
Police background check for 4 direct care employees, did not obtain the background checks for 13 direct
care employees within the required timeframes, and did not schedule sufficient staff to provide 2.7
hours of direct care per resident per day for 7 of the days reviewed.  We recommended that Beverly:  (1) restrict
the four direct care employees from working directly with the residents until it obtains valid background
checks; (2) review and strengthen its internal controls to assure that it obtains valid background
checks on all new direct care employees, and prohibits new employees from working directly with the
residents if the background checks are not received within the required timeframes; and (3) review
and strengthen its internal controls to assure that it schedules direct care employees to ensure that
there is enough nursing staff on duty to provide 2.7 hours of direct care per resident per day.  Beverly
concurred with our findings.